<html>
<title> - THE HOMELAND SECURITY DEPARTMENT'S PLAN TO CONSOLIDATE AND CO-LOCATE REGIONAL AND FIELD OFFICES: IMPROVING COMMUNICATION AND COORDINATION</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





 THE HOMELAND SECURITY DEPARTMENT'S PLAN TO CONSOLIDATE AND CO-LOCATE 
  REGIONAL AND FIELD OFFICES: IMPROVING COMMUNICATION AND COORDINATION

=======================================================================

                             JOINT HEARING

                               before the

                     SUBCOMMITTEE ON ENERGY POLICY,
                    NATURAL RESOURCES AND REGULATORY
                                AFFAIRS

                                and the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   EMERGING THREATS AND INTERNATIONAL
                               RELATIONS

                                 of the

                     COMMITTEE ON GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 24, 2004

                               __________

                           Serial No. 108-168

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
94-905                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

Subcommittee on Energy Policy, Natural Resources and Regulatory Affairs

                     DOUG OSE, California, Chairman
EDWARD L. SCHROCK, Virginia          JOHN F. TIERNEY, Massachusetts
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
CHRIS CANNON, Utah                   DENNIS J. KUCINICH, Ohio
NATHAN DEAL, Georgia                 CHRIS VAN HOLLEN, Maryland
CANDICE S. MILLER, Michigan          JIM COOPER, Tennessee
PATRICK J. TIBERI, Ohio

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                   Barbara F. Kahlow, Staff Director
           Danielle Hallcom Quist, Professional Staff Member
                          Lauren Jacobs, Clerk
                     Krista Boyd, Minority Counsel
 Subcommittee on National Security, Emerging Threats and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman

MICHAEL R. TURNER, Ohio
DAN BURTON, Indiana                  DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           TOM LANTOS, California
RON LEWIS, Kentucky                  BERNARD SANDERS, Vermont
TODD RUSSELL PLATTS, Pennsylvania    STEPHEN F. LYNCH, Massachusetts
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York
EDWARD L. SCHROCK, Virginia          LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
KATHERINE HARRIS, Florida            JOHN F. TIERNEY, Massachusetts
                                     DIANE E. WATSON, California

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 24, 2004...................................     1
Statement of:
    Hutchinson, Asa, Under Secretary, Border and Transportation 
      Security, Department of Homeland Security..................    19
    Kinghorn, C. Morgan, president, National Academy of Public 
      Administration; Edward Flynn, secretary, Executive Office 
      of Public Safety, State of Massachusetts; Karen Anderson, 
      mayor, city of Minnetonka, MN, on behalf of the National 
      League of Cities; Martin Fenstersheib, health officer, 
      Santa Clara County Public Health Department, on behalf of 
      the National Association of County and City Health 
      Officials; and James Lee Witt, former Administrator, 
      Federal Emergency Management Agency, currently president, 
      James Lee Witt Associates, LLC.............................    48
Letters, statements, etc., submitted for the record by:
    Anderson, Karen, mayor, city of Minnetonka, MN, on behalf of 
      the National League of Cities, prepared statement of.......    74
    Fenstersheib, Martin, health officer, Santa Clara County 
      Public Health Department, on behalf of the National 
      Association of County and City Health Officials, prepared 
      statement of...............................................    82
    Flynn, Edward, secretary, Executive Office of Public Safety, 
      State of Massachusetts, prepared statement of..............    68
    Hutchinson, Asa, Under Secretary, Border and Transportation 
      Security, Department of Homeland Security:
        Followup questions and responses.........................    44
        Prepared statement of....................................    21
    Kinghorn, C. Morgan, president, National Academy of Public 
      Administration, prepared statement of......................    51
    Miller, Hon. Candice S., a Representative in Congress from 
      the State of Michigan, prepared statement of...............    30
    Ose, Hon. Doug, a Representative in Congress from the State 
      of California, prepared statement of.......................     3
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............    27
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............    41
    Witt, James Lee, former Administrator, Federal Emergency 
      Management Agency, currently president, James Lee Witt 
      Associates, LLC, prepared statement of.....................    91

 
 THE HOMELAND SECURITY DEPARTMENT'S PLAN TO CONSOLIDATE AND CO-LOCATE 
  REGIONAL AND FIELD OFFICES: IMPROVING COMMUNICATION AND COORDINATION

                              ----------                              


                       WEDNESDAY, MARCH 24, 2004

        House of Representatives, Subcommittee on Energy 
            Policy, Natural Resources and Regulatory 
            Affairs, joint with the Subcommittee on 
            National Security, Emerging Threats and 
            International Relations, Committee on 
            Government Reform,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 1 p.m., in 
room 2247, Rayburn House Office Building, Hon. Doug Ose 
(chairman of the Subcommittee on Energy Policy, Natural 
Resources and Regulatory Affairs) presiding.
    Present: Representatives Ose, Shays, Maloney, Miller, 
Tierney, and Ruppersberger.
    Staff present: Barbara F. Kahlow, staff director; Danielle 
Hallcom Quist, professional staff member; Lauren Jacobs, clerk; 
Megan Taormino, press secretary, Subcommittee on Energy Policy, 
Natural Resources and Regulatory Affairs; Larry Halloran, staff 
director and counsel; Robert A. Briggs, clerk, Subcommittee on 
National Security, Emerging Threats and International 
Relations; Krista Boyd, minority counsel; Andrew Su, minority 
professional staff member; and Cecelia Morton, minority office 
manager.
    Mr. Ose. First let me welcome everybody to today's hearing, 
a joint hearing between the Subcommittee on Energy Policy, 
Natural Resources and Regulatory Affairs, and the Subcommittee 
on National Security, Emerging Threats and International 
Relations.
    The purpose of today's hearing is to provide oversight to 
the Homeland Security Department's plan to consolidate and co-
locate regional and field offices, focusing on communication 
and coordination.
    In November 2002, Congress established the Department of 
Homeland Security to ensure that the tragic events of September 
11, 2001, would never happen again. Transferring 22 former 
Federal agencies and approximately 180,000 employees to DHS is 
a relatively easy task; however, integrating the staff 
positions and physical assets and capabilities into a cohesive 
Department has been an extremely difficult task. This effort is 
complicated by the fact that the 22 former Federal agencies had 
and still maintain multiple regional and field offices with 
overlapping jurisdictions. Recognizing obstacles that the 
former regional field structures would impose upon 
communication and coordination among and between the DHS staff 
and local first responders, I worked with subcommittee Ranking 
Member John Tierney in introducing Section 706 of the 
Department of Homeland Security Act. Section 706 requires DHS 
to develop and submit to Congress by November 25, 2003, a plan 
to consolidate and co-locate those former Federal agency 
regional field offices within the same locality that were 
transferred to DHS.
    DHS submitted its report to Congress on February 4, 2004. 
The report provided minimum description of consolidation and 
co-location plans of Homeland Security field offices. On a 
Department-wide scale, DHS provided an outline of a plan to 
consolidate and co-locate physical assets. DHS has not yet 
explained how or when it plans to reorganize the regional field 
offices in their respective jurisdictions.
    Importantly, the report does not address the relationship 
between consolidation and co-location of physical assets and 
Section 706's legislative history. The legislative history 
requires that consolidation and co-location is not merely an 
exercise of asset management and efficiency. As Congressman 
Tierney and I discussed in a colloquy on the House floor, the 
purpose of the Section 706 report is for DHS to provide to the 
Congress a plan explaining how it intends to use consolidation 
and co-location to improve the level of communication and 
cooperation among and between DHS and first responders. To the 
extent DHS staff is located in a single building, they're 
easier to cross train and to perform emergency and other 
functions needed for Homeland Security in the case of an actual 
emergency. It is also important for first responders to have 
meaningful relationships with their counterparts in the local 
DHS regional and field offices. Moreover, the one-stop-shop for 
local first responders will greatly improve local preparedness 
and response by providing improved communication and financial 
assistance.
    Congress passed the act establishing DHS. It has already 
accomplished the most important job in the Federal Government. 
Congress understands that there were 22 Federal agencies with 
unique histories and cultures and regional field structures and 
jurisdictions. It is a daunting task. However, DHS cannot fully 
provide homeland security until its regional field structures 
are optimally organized, staff is cross-trained, and the lines 
of communication between DHS field offices and local first 
responders are open.
    We want to emphasize that today's hearing is not about 
funding of DHS or local first responders. Today's hearing is 
also not about which DHS regional and field offices might be 
closing. We called this hearing to facilitate and improve this 
Nation's state of readiness.
    Today we will hear from DHS on attempts not only to 
consolidate and co-locate DHS's human and physical assets, but 
also how to do so strategically.
    We are joined on the second panel by some of the key 
players in local first responder groups. We welcome all of you 
and thank you for your tireless effort.
    I look forward to the testimony of our witnesses.
    [The prepared statement of Hon. Doug Ose follows:]

    [GRAPHIC] [TIFF OMITTED] T4905.001
    
    [GRAPHIC] [TIFF OMITTED] T4905.002
    
    [GRAPHIC] [TIFF OMITTED] T4905.003
    
    [GRAPHIC] [TIFF OMITTED] T4905.004
    
    [GRAPHIC] [TIFF OMITTED] T4905.005
    
    [GRAPHIC] [TIFF OMITTED] T4905.006
    
    [GRAPHIC] [TIFF OMITTED] T4905.007
    
    [GRAPHIC] [TIFF OMITTED] T4905.008
    
    [GRAPHIC] [TIFF OMITTED] T4905.009
    
    [GRAPHIC] [TIFF OMITTED] T4905.010
    
    [GRAPHIC] [TIFF OMITTED] T4905.011
    
    [GRAPHIC] [TIFF OMITTED] T4905.012
    
    [GRAPHIC] [TIFF OMITTED] T4905.013
    
    [GRAPHIC] [TIFF OMITTED] T4905.014
    
    [GRAPHIC] [TIFF OMITTED] T4905.015
    
    [GRAPHIC] [TIFF OMITTED] T4905.016
    
    Mr. Ose. As others join us, we will allow their statements 
to be put into the record, but in the interest of time we are 
going to proceed directly to the witnesses.
    In this committee, Government Reform, we swear in all of 
our witnesses, regardless of subject. It is our tradition and 
protocol. So, Mr. Under Secretary, would you please rise?
    [Witness sworn.]
    Mr. Ose. Thank you. Let the record show that the witness 
answered in the affirmative.
    Mr. Under Secretary Hutchinson, it is good to see you 
again. Thank you for joining us. We do have your statement for 
the record, and we are pleased to have your testimony on this 
important subject. Go ahead.

   STATEMENT OF ASA HUTCHINSON, UNDER SECRETARY, BORDER AND 
    TRANSPORTATION SECURITY, DEPARTMENT OF HOMELAND SECURITY

    Mr. Hutchinson. Thank you, Chairman Ose. It is a pleasure 
to be before this committee, and I want to thank you for your 
support and leadership in this area.
    Earlier this year, as you know, the Department forwarded a 
report assessing our field property portfolio, addressing some 
of the issues that you are concerned about with regard to 
consolidation and co-location of offices, and we understand 
from the discussion of the committee staff that the focus of 
our report may have been missing the mark somewhat, and after 
reviewing the report I agree with you that it was a little bit 
too vague, and so I hope today's discussion will shed light on 
that and be beneficial to the committee.
    I know that the focus is on the strategic consolidation, 
but I might just comment on some of the progress that has been 
made in the over-arching area of reorganization, efficiencies 
achieved from that, and the better delivery of services.
    First and foremost, we consolidated our border inspection 
agencies under one particular agency. As you know, prior to the 
creation of the Department, you had Agriculture inspectors, you 
had Immigration inspectors, and Customs inspectors, all three 
reporting in to three different directors, three different 
departments of government. That has been consolidated into one, 
and now we have CBP officers who are cross-trained in 
inspection procedures, provide a better benefit to the public, 
and better accountability for management purposes. In addition, 
we reorganized the enforcement side in Immigration and Customs 
Enforcement, including re-designating the Federal air marshal 
program as a part of that to improve efficiencies.
    When it comes to first responder grants, which is an 
important capability with the State and local community, we 
hear loud and clear the frustration that they had a number of 
different pipes into the Department of Homeland Security, and 
so with the $7.1 billion in assistance that had to be meted out 
last year through our Office of Domestic Preparedness and our 
other grant programs, we have now consolidated all of the grant 
programs into one funding stream in the Department to give 
State and local first responders one portal into the Department 
rather than having multiple sources that they go through. This 
would include the $500 million assistance to fire fighters, and 
it would consolidate the 25 State and local support programs 
and initiatives into one office to ensure simplified and 
coordinated administration of these programs.
    From a strategic standpoint, the substantive offices will 
still have impact on the distribution of these grants, but it 
facilitates the delivery of those services through one portal.
    We have also reorganized our national incident management 
system to be more effective. The Department established that 
this system, which is the Nation's first standardized 
management plan to create a unified chain of command for 
Federal, State, and local lines of government for incident 
response. This certainly impacts our relationship with first 
responders, as well.
    We will have an incident management center integration 
center to serve as a focal point for first responders to ensure 
that what we provide is accurate and will be an effective 
management tool. We'll provide education and training, 
communications and equipment, qualifications and credentialling 
of incident management and first responder personnel.
    Then, I would also point out that the President's 2005 
budget that has been submitted to Congress itemized $100 
million in savings in terms of initiative through the strategic 
sourcings of office supplies, weapons and ammunition, copiers, 
and fleet motor vehicles. These are all from different agencies 
where we have a more strategic ability in procurement. We 
estimate a $100 million savings from that effort.
    Finally, Mr. Chairman, you asked particularly about the 
facilities and our planning in the co-location of offices. This 
is really being done at three different levels. First, at the 
operational level it is an ongoing project where we have legacy 
Immigration and legacy Customs offices in two separate 
buildings. As leases expire, we are co-locating those into one 
facility, and so it is a high priority for us because it is 
important for those agencies to be working side by side, but it 
varies in city based upon when the leases expire and the 
operation capability. We are also doing the same consolidation 
at the headquarters level with, for example, making sure that 
the Customs offices are located with their strategic partners 
at the headquarters level.
    Finally, probably most importantly to this committee, is 
the regional concept, which is more of a long-term strategic 
alignment of the 22 agencies. This will have to be taken a 
strategic step at a time, first of all developing the whole 
regional concept and then bringing the regional alignments 
together underneath that. Finally, the last part of it really 
is making sure that the agency is being conformed to that 
regional alignment, not necessarily by closing offices but by 
making sure their structure, their communication is consistent 
with that regional structure. That is an ongoing project and 
significant manpower hours are being devoted to that, but it 
has not been completed and it is not subject to public 
revealing at this point, but we hope to conclude that project 
in the near future.
    With that, Mr. Chairman, I will obviously submit my written 
comments for the record, but I'll look forward to our 
discussion.
    [The prepared statement of Mr. Hutchinson follows:]

    [GRAPHIC] [TIFF OMITTED] T4905.017
    
    [GRAPHIC] [TIFF OMITTED] T4905.018
    
    [GRAPHIC] [TIFF OMITTED] T4905.019
    
    [GRAPHIC] [TIFF OMITTED] T4905.020
    
    [GRAPHIC] [TIFF OMITTED] T4905.021
    
    Mr. Ose. Thank you, Mr. Under Secretary.
    Mr. Shays, do you have any questions?
    Mr. Shays. Not at this time, Mr. Chairman.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T4905.022
    
    [GRAPHIC] [TIFF OMITTED] T4905.023
    
    Mr. Ose. Mrs. Maloney.
    Mrs. Maloney. I believe I will put my opening statement in 
the record and welcome our witnesses.
    Mr. Ose. Ms. Miller.
    Ms. Miller. Mr. Chairman, I will follow suit and submit my 
statement for the record. I welcome our witnesses, as well. I 
don't have any questions.
    [The prepared statement of Hon. Candice S. Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T4905.024
    
    [GRAPHIC] [TIFF OMITTED] T4905.025
    
    [GRAPHIC] [TIFF OMITTED] T4905.026
    
    Mr. Ose. We're going to be out of here by 7 tonight. 
[Laughter.]
    Mr. Under Secretary, we talked a little bit about what 
Section 706 sought, and I just want to make sure--and you 
touched on it in your testimony about not quite getting it 
straight. What does DHS understand the purpose of Section 706 
to be?
    Mr. Hutchinson. Well, the language of the request has to do 
with the co-location of offices, and so our report dealt 
specifically with that aspect of it, touching upon the regions. 
But, it just was not as specific and not as responsive to the 
strategic concerns that this committee had, and so we welcome 
this opportunity to clarify any particular issues that you 
have.
    Mr. Ose. Given my background, I'm particularly interested 
in the physical assets in terms of a schedule of leases that 
are expiring here and there and so on and so forth. Have you 
been able to go through and, for lack of a better word, 
quantify where the opportunity might exist across the country 
for co-location?
    Mr. Hutchinson. That process has started, first in the 
determination order. That was really for OMB purposes in making 
the budgetary allocation of resources, and it was very sketchy 
information for each asset. So, that's the determination order.
    Each asset manager within the 22 agencies making up the 
Department has a very detailed inventory of all the assets, and 
that is consolidated into a data base at Homeland Security, but 
that is the process it has to go through for ultimately 
arriving at the consolidations that we and efficiencies that we 
hope to achieve down the road. That will be done more in a 
long-term process, setting up the goals and objectives that we 
are trying to accomplish. Any regional alignment that we have 
would have to be a strategic marker that we have to respond to.
    Right now I think our focus has probably been more narrow 
in terms of, for example, the training facilities. We 
concentrated upon and it has been my project to look at all of 
the training facilities in the 22 agencies, the firearms 
ranges. Is there any consolidation, any leadership that we can 
provide there? And, so that focus has been there. Then we will 
broaden that more to all of the assets that we had. But, that 
would be more of a strategic, long-term plan as was outlined in 
the report.
    Mr. Ose. As we were considering this hearing, I was trying 
to conceptualize how you would do that, and I believe this puts 
it up conceptually. DHS has 22 different agencies and 180,000 
different people. Without getting into specific agencies, if I 
understand what your testimony is, making the determination and 
figuring out, that this agency has these assets, and then you 
have broken those down into, ``This is office space we own, 
this is office space we lease, this is where office space is 
located under this lease, this is where it is owned.'' Are you 
trying to--if I understand your testimony, in a 5 to 7-year 
period of time you'll let those leases run their course and 
then bring those facilities into a central location.
    Do you have yet any of the 22 agencies finished relative to 
this plan for consolidation and co-location?
    Mr. Hutchinson. Not in the long-term plan. And, let me come 
back to your first comment. As, for example, if you take 
Chicago, at Chicago we have worked to co-locate all of the 
investigative offices in Chicago, and that should be completed 
within 3 months in terms of the Immigration and legacy Customs 
offices that are now at one agency. That has happened at an 
operational level. We're not waiting. It is going to be 
accomplished. In Miami, 50 percent of the investigators are co-
located, and so you have different levels, but that is an 
ongoing process that has some urgency to it because we realize 
savings in that, and it is also better for our agents to work 
together.
    But in the longer term, for example, you know, Coast Guard, 
which is not my arena of responsibility, but their massive 
amount of facilities out there and how that relates to, for 
example, FEMA or Border Patrol, and that's going to take a 
longer-term study to see if there's any efficiencies and any 
logic in it, because it might ultimately decide that they have 
two separate missions and it would not be any benefit in co-
location, and there would be more of a strategic study that, 
quite frankly, I think the timeline that was laid out in the 
report is--you know, it is months away before the baseline is 
set for that aspect of it. That should not diminish from the 
immediate steps that are being taken and efficiencies being 
achieved.
    Mr. Ose. Congressman Shays.
    Mr. Shays. I thank the gentleman.
    Mr. Secretary, you have a lot under Department of Homeland 
Security. You've got it all. One of the things that we have 
been concerned about is how we consolidate and so on. There's a 
temptation to want to do it by access. You've got to do it and 
you've got to go in there. What are you doing to make sure it's 
more passive management? What capabilities do you have to do 
that? I understand this is really a 7-year effort. I'm aware 
it's going to be a long term thing.
    Mr. Hutchinson. That's absolutely the point that what 
should drive this would be the mission, and the mission should 
define any co-locations or asset managements. For example, when 
we realigned Immigration and Customs into one enforcement 
agency, that mission definement set the stage for those co-
locations. That's ongoing. The next----
    Mr. Shays. How long is that going to take you?
    Mr. Hutchinson. That's what I was referring to. In Chicago, 
3 months it will be done there. In Miami we're 50 percent 
there. It depends upon location by location when the leases are 
up and that opportunity presents itself. In the meantime, 
though, what we're doing, even though you might be in two 
locations, you're mixing your investigators so that they are 
co-located together even though they are in separate locations. 
So we are taking those operational steps.
    But, in the next vision statement, really, it will be in 
terms of our regional concept. The President submitted in his 
2004 budget that the whole Department would look at the 
regional alignment. When that final decision is made, which 
should be in the near future, then that will define our 
missions by regions, and then you can take the best-defined--
the next steps that we take in reference to assets, buildings, 
and so on.
    Mr. Shays. What about the issue of standards? If we're 
doing it by mission, not by asset, you're not going to assume 
that you have a vacant building if it makes sense to move 
people somewhere else? I mean, is the lease going to be turning 
on how we define an employee?
    Mr. Hutchinson. That certainly is a factor. I don't think 
we're going to be abandoning leases that are going to cost 
taxpayers a substantial amount of money if we have to lease 
additional space. So, I mean, we're just going to try to be 
smart about it.
    Mr. Shays. What we'll do is integrate the mission?
    Mr. Hutchinson. Absolutely.
    Mr. Shays. You did what many think is very brave when you 
started to talk about standards on a high level. I'm interested 
to know what you feel about the goal of standards in 
determining allocation of resources.
    Mr. Hutchinson. Well, you might followup to make sure I'm 
getting after your point, but I think it is critical in terms 
of the allocation of the grant money, for example, that we have 
assessments that are made----
    Mr. Shays. Dealing with preparedness standards.
    Mr. Hutchinson. We do not want to come back to Congress a 
year from now and have you ask us what happened to that $7 
billion that went out the door and we don't have a good 
accounting of that, that we actually enhanced security, so we 
do insist upon our national priorities on preparedness, on 
response capability, and that is supplemented by the State 
response plans that help give more flexibility to it. We do 
want to have the national priorities reflected so that we can 
increase our preparedness and prevention capabilities.
    Then you can more narrowly look at that in terms of rail 
and transit systems and have a national baseline of prevention 
capabilities there. You look at our national incident 
management system that is the first one ever in which we are 
prepared to respond to incidents in the field, whether it is a 
terrorist incident or natural disaster in which there is 
coordination, and a national plan that is in place to respond 
to that.
    Mr. Shays. Thank you, Mr. Chairman.
    Mr. Ose. Ms. Miller.
    Ms. Miller. Thank you, Mr. Chairman.
    Welcome, Mr. Under Secretary.
    Mr. Hutchinson. Thank you.
    Ms. Miller. About 2 months ago I had the distinct honor to 
have Secretary Ridge in my District. We share hundreds of miles 
of border with Canada. In that economy we have the Blue Water 
Bridge, which is the busiest water crossing. It is the only 
certified bridge across the United States to accommodate 
hazardous materials. We have a fleet and rail tunnel that runs 
right underneath of the bridge. And we also have something that 
we all refer to in that area as ``Chemical Valley.'' There are 
hundreds of chemical plants on the side of the river there.
    We took Secretary Ridge on the tour, a helicopter tour, 
about 4 hours. All were trying to express to him our concern, 
our consternation and trying to be very proactive on the local 
level with regard to Homeland Security, understanding the 
unique nature that we have, and yet a very small population 
comparatively.
    I would ask you to respond to the regional allocation 
financially and the criteria that you have for that. It is 
really quite an issue in the Nation.
    Mr. Hutchinson. Excellent observation, and that points up 
the need to have a number of factors that are used in the 
distribution of funds for Homeland Security purposes, and 
population is a relevant factor because, obviously, population 
centers are targets of opportunity to the terrorists, but also 
you have critical infrastructure. You mentioned chemical plants 
being one of those, transportation centers and hubs, bridges, 
tunnels, these type of things that have either symbolic value 
or infrastructure value. We also measure those in terms of the 
allocation of resources, and that should be an important factor 
because that affects the deployment, the drain that is on local 
first responders.
    Another one I would add, a factor that is relevant is the 
extent of operational capability that's intelligence based from 
the terrorist standpoint and the intelligence that we've 
received as to the nature of their interest in a particular 
area.
    Ms. Miller. Shifting gears here for a moment, I have a 
great interest in what is happening in the Department in 
regards to the regional headquarters. As you know, you and I 
have had some conversation about that. But, as you have 
mentioned, you're not ready to publicly disclose where some of 
them may be or any of them may be. I'm anticipating, of course, 
that you're putting together your criteria for the regional 
headquarters. As you put together the criteria, I also sit on 
the Armed Services Committee, and, of course, we are fully 
engaged in watching what is happening with BRAC. But, it is 
interesting. I think there are some analogies to be drawn to 
the Department of Homeland Security with BRAC. The operative 
phrase there is ``jointness,'' so that you look at facilities 
where you are able to be very cost effective, etc., for the 
taxpayers, of course, looking at the military mission.
    I'm wondering whether or not the Department of Homeland 
Security is coordinating very closely with the DOD as they are 
thinking about excess that we may have in the inventory for 
military installations within the Nation. As you are citing 
some of these regional headquarters, it would seem, as part of 
your criteria, you'd be looking at secure locations, that 
you've be looking perhaps at locations that maybe already have 
several of your agencies under the umbrella at that location, 
and again with the idea of jointness first of all for the 
mission of Homeland Security but second cost effectiveness, as 
well, for the taxpayer. Are you coordinating that?
    Mr. Hutchinson. As you noted, there is a lot of interest in 
this issue and, just like the Secretary, I have been called 
upon to see various facilities, and some of them being military 
facilities. Certainly it is something that should be considered 
and evaluated. Quite frankly, the first level of priority is 
simply the decisionmaking as to the concept of operations at a 
region and then locations, the makeup of it, how many. Then, 
once those decisions are made, I think then you start looking 
at, well, what kind of facility should it be. I think it will 
be fairly robust in terms of its capabilities, but probably 
modest in terms of its consuming facility.
    Then, you know, we will just have a longer-term plan as to 
where it needs to go down the road, and during the course of 
that certainly it should be coordinated with Defense facilities 
that are available, best locations, and obviously with 
interested folks in Congress that have a great interest and 
understand their Districts more than anyone.
    Ms. Miller. Thank you, Mr. Chairman.
    Mr. Ose. The Members up here, with the Under Secretary's 
concurrence, have asked for a second round of questions.
    Mr. Hutchinson. Certainly.
    Mr. Ose. We're going to proceed accordingly.
    I'm interested in this integration project that is going on 
relative to the regional and field offices. Apparently there's 
40 or 50 DHS employees currently stationed in what is referred 
to as an ``integration center.''
    Mr. Hutchinson. Correct.
    Mr. Ose. Can you tell me who is the lead person?
    Mr. Ose. Bob Stephan. Bob Stephan, who is an outstanding--
--
    Mr. Ose. S-T-E?
    Mr. Hutchinson. P-H-A-N. He has been tasked by the 
Secretary to put together this team which is made up of our BTS 
agency employees and others to develop a concept of operations 
for regions, make recommendations to the policy decisionmakers, 
and they are actively engaged in that and doing an outstanding 
job.
    Mr. Ose. Do you have a time table for the completion of 
this?
    Mr. Hutchinson. Well, it is--I would say that the--we have 
been working on this really since the roll-out of the 
President's budget in 2004, so for some time, and it has gone 
through a number of iterations trying to improve the product, 
getting a lot of feedback from people who are knowledgeable 
about this, and there have been adjustments made, and I think 
it is getting into a very fine product that's getting close to 
completion. It's really up to the Secretary and the White House 
as to the exact timeframe that this is ready to go. But, I 
would say that we are getting closer.
    Mr. Ose. Actually, this is one of the points I wanted to 
elaborate on a little bit. As the President rolled his budget 
out in January 2003 for fiscal year 2004, we didn't complete 
our work on that budget until late January 2004. In a very real 
sense, you have been at it or actually had it authorized for 
but a few months. To that extent, I want to compliment you and 
your team for the progress you've made. I don't want to lose 
the point that you haven't been able to do this except since we 
finalized approval of the administrative side proposal.
    I'm going to yield to Chairman Shays.
    Mr. Shays. Thank you.
    I'm interested in how the Department of Homeland Security 
has involved local first responders and other stakeholders in 
the development of its regional plans.
    Mr. Hutchinson. Well, it is probably not a formal structure 
that they would necessarily be involved in. This is the type of 
development that we have reached out, and people who have a 
long history in working in these different agencies and law 
enforcement have been engaged in. We have people involved in 
the integration staff that are very knowledgeable in the first 
responder community, but we have also learned that sometimes 
having too many meetings out there creates a lot of controversy 
about the concept of this, because even though to the 
knowledgeable members of this committee a regional concept 
makes sense in the delivery of services, it creates a lot of 
consternation out there, as well, that this is somehow going to 
lose our office or we are going to lose some other capability, 
and so there has not been a formal communication structure with 
the first responder community, but I believe that their 
interest has helped to drive this. They are the ones who are 
saying, ``We don't know who to talk to. We've got 22 different 
agencies and we don't know the right people to go to.'' Their 
comments are the ones that are driving this whole initiative.
    Mr. Shays. Basically a point I'd love to make to you 
because the synergy that takes place among you and Secretary 
Ridge and others, the whole concept of the need to have 
standards in what you do, we clearly see a need when we are 
allocating lots of the grants, and the argument that every 
community should get a certain amount per capita, I mean, I 
would suggest to you that communities--New York City clearly 
needs an extraordinary amount of resources, as would Washington 
and others that are, I think, acknowledged to be targeted 
areas, but then the communities nearby. And, I would make an 
argument to you that without setting the standards we don't 
know how to evaluate whether we are doing a good job. And so, 
just as you need to be setting standards, I hope they are 
starting to set standards and moving more quickly. We're trying 
to get that done in the bill by Mr. Cox. We would like very 
much to see that move along more quickly.
    What are the standards? Then we can evaluate how we are 
giving out the money. We'll continually encourage you to update 
the standards and change. Otherwise, I think we're going to 
waste a lot of resources.
    Mr. Hutchinson. You're absolutely correct. We're in full 
agreement with you. Congressional support and the flexibility 
of those grants and targeting it to high-risk areas has been 
very important to what we have been able to do.
    Mr. Shays. I'd love to just know, as a general rule, what 
is the interaction that takes place among the four pillars that 
we basically designed when we wrote this law? I mean, do you 
have meetings where all of you get together and share your 
successes and failures and talk about your challenges, or are 
you all so busy that you're all just kind of going in different 
directions?
    Mr. Hutchinson. Actually, Secretary Ridge has been very 
good and Deputy Secretary Loy, in making sure we have regular 
meetings. So, in fact, yesterday at about 2:30 all the Under 
Secretaries and Secretary Ridge met together in a conference 
room and we talked about the current status of things, went 
around, covered issues, and we do that once a week with 
Secretary Ridge and we do it once a week with Deputy Secretary 
Loy.
    Mr. Shays. Great. Thank you.
    Thank you, Mr. Chairman.
    Mr. Ose. Ms. Miller.
    Ms. Miller. Thank you, Mr. Chairman.
    Mr. Under Secretary, as we in the Congress are trying our 
darndest to make sure that we get our Homeland Security funds 
to our first responders and our local communities across the 
Nation, I have some consternation or we have had some 
consternation in the State of Michigan--and I suppose this is 
happening in many of the States--where it is by law, by 
statute, appropriate for the States to take up to 20 percent of 
all the funding that we are appropriating for administrative 
costs, and understanding the budgetary constraints that many of 
the States are finding themselves in. I come from State 
government. I know what it is to try to plug a hole in the 
budget with any money that you can find. I can appreciate their 
actions by taking it all the way up to 20 percent, but that was 
not what we had in mind when we were appropriating the funds to 
be paying for State police or what have you that should be paid 
for with other funds. We think those Homeland Security funds 
should be going, as I say, for the most part to our local first 
responders. Do you have any comment on that? Do you think--are 
you able to promulgate rules to change that? Does it require 
congressional action? And, should we even be concerned with 
that?
    Mr. Hutchinson. Well, I think it is important for general 
Homeland Security funding to pass through the States because it 
is important that there is some coordination, some regional 
direction that is given to the training, the response 
capability, and to set some of those priorities. Now, as to 
whether it is 20 percent or a smaller percent, I think--I 
believe that is congressionally fixed. I will have to check to 
make sure, but I believe that is correct. We'll be happy to 
respond to any directions that Congress gave to us.
    I think that there were appropriate circumstances whenever 
we gave out the counter-terrorism funds. It did not go through 
the States. This went directly to some of the urban centers 
that had increased expenses for Operation Liberty Shield and 
when we had a higher threat level, and there are overtime 
expenses, so there should be some exceptions to that general 
rule of the security funds going through the States.
    Mr. Ose. If the gentlelady would yield? It is my 
understanding that the typical administrative fee is around 10 
percent. That's the usual. Now, given the Under Secretary's 
comments about unique circumstances, obviously there is some 
play to that.
    Ms. Miller. That's correct. In Michigan actually 
historically it has been between 6 and 8 percent, but right now 
it is running at the full 20 percent, which has us--as I say, 
we have some consternation about that, so we are going to take 
a look at that. I'm sure that's not unique across the Nation. I 
don't know what the others----
    Mr. Hutchinson. All the cities agree with you.
    Ms. Miller. I would just have one other question, Mr. 
Chairman, if I could, back to the regional headquarters. Again, 
we are all very interested in that, and Chairman Shays had 
asked a little bit about this, as well, but as you are 
developing your criteria, do you take into consideration, as 
well, the first responders and how they might interact with 
your regional headquarters? For instance, in my District our 
local community college has one of two nationally recognized 
training centers for first responders. Again, we are in an area 
that we pride ourselves on really trying to be very proactive 
about these kinds of things. Would you look to that as a 
consideration?
    And, then my other question and I'll be done here. I know 
you said, again, it is premature to ask you or perhaps for you 
to talk about where they may be located, but could you perhaps 
tell us, do you have an idea about doing a pilot project for a 
regional headquarters? And, if so, when might you have such a 
pilot project?
    Mr. Hutchinson. For the regional operating concept we had a 
limited pilot in Miami when we were operational out of concern 
for Haiti and the circumstances there and the potential of a 
mass migration. We had an operational concept that was set up 
that brought all the agencies together, but that was somewhat 
of a test as to how it worked.
    In going back to criteria for regions, the first, most 
important thing for us is the commonality of a region. Do they 
share threats? Do they need to bind together working 
relationships, history. And then we start looking at, you know, 
other factors such as what you mentioned, which certainly 
should be relevant.
    Ms. Miller. Thank you, Mr. Chairman.
    Mr. Ose. Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. Mr. Chairman, I'd 
like to add my opening remarks to the record.
    [The prepared statement of Hon. John F. Tierney follows:]

    [GRAPHIC] [TIFF OMITTED] T4905.027
    
    Mr. Ose. There will be no objection to that.
    Mr. Tierney. Thank you.
    Asa, how are you doing?
    Mr. Hutchinson. Good. Good to see you.
    Mr. Tierney. We've been seeing more of you lately than 
anybody else, I think, up here.
    Mr. Hutchinson. I love being over here.
    Mr. Tierney. Yes. Let me just ask you a couple of quick 
questions here. One is with respect to cross-training. That was 
one of the issues that the chairman and I talked about when the 
bill was filed. Can you give us an update on what exactly is 
being done in order to cross-train people from different 
agencies or departments so that they have an appreciation for 
what the others are doing and can better coordinate their 
efforts?
    Mr. Hutchinson. Yes, and I'm grateful for the congressional 
push and encouragement in this area. I think it is a very 
important part of the mandate of Homeland Security. For 
example, the first instance would be in the reorganization 
we've accomplished Customs and Border Protection, which 
includes customs, immigration inspectors, agriculture 
inspectors into one CBP officer. They are being cross-trained. 
That is an ongoing effort that happens locally on a day-by-day 
basis, but we are also formally doing it through the Federal 
Law Enforcement Training Center where we are doing cross 
training there, and the new batch of officers coming out have 
that cross training.
    It is also taking place in the Immigration and Customs 
Enforcement area where we have our special agents. They are 
working side by side, Customs agents, Immigration agents 
historically. Now they are ICE agents and they are being cross 
trained, as well, working on cases together. That will be 
expanded.
    Then, for example, the international arena, we've had to do 
substantial work, because all of the sudden we might have a TSA 
inspector in a region of the world that we might have other 
taskings for. It is a gradual process and we want to be careful 
not to diminish their primary mission and training, but it is 
something we're looking at as aggressively as we can.
    Mr. Tierney. And other areas besides that on the domestic 
level, in particular, cities or regions?
    Mr. Hutchinson. Yes. I'm trying to think of illustrations 
of it. For example, in the airports, just so limited, we just 
initiated the Arizona border patrol initiative in Phoenix where 
we really are trying to address the lack of border patrol 
there, and we even had some limited training of TSA so that 
they would know a little bit more how to identify and work and 
support our efforts in the airports, not to interfere with 
their usual operations, just to be more cognizant of other 
Homeland Security issues. So that is an ongoing basis. We are 
continually looking for opportunities there, and as we move 
into the regional concept obviously that's where it will be 
enhanced to even a higher level because you would have a 
regional director that would help in the cross-training, in the 
integration whenever it makes sense.
    Mr. Tierney. Will you be providing Congress with a more 
detailed plan of what you intend to do on cross training?
    Mr. Hutchinson. We're happy to keep you posted, and 
certainly you would be formally notified of any development of 
a regional----
    Mr. Tierney. Will you give us a plan of where you intend to 
go, exactly what you intend to do, and when you intend to do it 
by?
    Mr. Hutchinson. We would be happy to.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4905.028
    
    [GRAPHIC] [TIFF OMITTED] T4905.029
    
    Mr. Tierney. Thank you. One last question on that is: with 
respect to the Fire Act grants, is it the Department's 
intention right now to continue those, the administration of 
those the same way that it has historically been done, or are 
you going to make any changes in that?
    Mr. Hutchinson. The only change that I'm aware of is that 
all of the grants, including the fire grants, are brought under 
ODP, Office of Domestic Preparedness, simply for the purpose of 
having a portal that all the grants be processed. We believe 
that makes it easier. But the substantive review and the 
commitment at the administrative level will remain the same 
with emergency preparedness and response.
    Mr. Tierney. So the application would go in as always and 
the money would be directly out to the locals, as always?
    Mr. Hutchinson. Yes. Yes, right.
    Mr. Tierney. Thank you. I yield back.
    Mr. Ose. I thank the gentleman.
    I want to go back to a comment that you made earlier. I 
want to particularly focus on this procurement consolidation 
for $100 million. Did I understand you to say that, by virtue 
of the procurement consolidation for DHS, you expect savings of 
$100 million?
    Mr. Hutchinson. That's correct.
    Mr. Ose. That's just on the first year of expenditures?
    Mr. Hutchinson. This is in our 2005 budget, and it is 
broken down--office supplies, weapons and ammo, copiers, fleet 
motor vehicles, and IT savings is a big chunk of it I shouldn't 
forget. So, those are strategic sourcing savings.
    Mr. Ose. That's on the procurement side. So, in effect, 
you've almost a one-stop procurement shop there, where 
everybody's request can be consolidated and you can buy in 
volume, if you will?
    Mr. Hutchinson. Volume and efficiencies, yes.
    Mr. Ose. All right. Now, on the other side of this, on the 
grant side where assistance is being given out to local first 
responders, that's also been consolidated. I think your phrase 
was ``one avenue of access'' for that. I want to build on that 
a little bit in terms of first responders. Where do they go for 
assistance or guidance or direction? Whether you're the fire 
department or law enforcement or public health officers or 
whomever, is it DHS's intention that each of these different 
disciplines will have a one-stop portal, or will all of the 
disciplines be grouped into a single portal?
    Mr. Hutchinson. The change we've made is for the grant 
process, so that's just really for the flow of money. Now, for 
technical assistance and other support they still have varying 
agencies that help them. For example, public health you 
mentioned. Obviously, Department of Health has a huge role to 
play in that regard in supporting them and directing them. The 
fire grants, you still have the Fire Administration that 
supports them. If you are looking then, of course, at police, 
they have a relationship with the law enforcement agencies that 
we would be supporting them, the Federal Law Enforcement 
Training Center. So, it is a difference between the flow of 
money and the technical expertise.
    Mr. Ose. I am differentiating there, and that's my 
question. I think I understand the money flow side of things. 
I'm trying to understand the technical expertise. Is there a 
similar one-stop shop concept for that?
    Mr. Hutchinson. There is not now, but under the regional 
concept the Department of Homeland Security there will be 
that--they will absolutely know who to go to on the regional 
level so they all don't have to go to Washington to call 
around. That's one of the major benefits of a regional concept.
    Mr. Ose. All right. Now, with your cooperation--Ms. Miller, 
do you have anything else for the Under Secretary?
    Ms. Miller. Could I ask one more question?
    Mr. Ose. Certainly.
    Ms. Miller. Just very briefly--it is interesting in my 
counties--and, again, I'm sure this is not unique--it seems as 
though almost all the counties have identified as their 
priority their lack of ability to communicate with one another 
for the different first responders, particularly the county 
sheriffs, the police, etc. Do you have any comment on what the 
appropriate role would be for your agency to make sure that 
there is a standard, perhaps mandating the frequency or what 
have you, so as everybody is out purchasing these new radio 
control towers at the cost of millions of dollars, that they 
can--I mean, it's great they could communicate within a county, 
but how about the next county or State-wide?
    Mr. Hutchinson. I might not have the technical expertise to 
answer that question, but it is my understanding that this is 
really not subject to a national standard, but it would be, for 
example, the State of Arizona I know we're setting some State 
principles in that regard, knowing which system everybody 
should get on. States might make a different decision in that 
regard. So, our priority is interoperability of the 
communication systems. We direct that. We give some flexibility 
obviously to the local communities as to how to accomplish 
that.
    Ms. Miller. Thank you.
    Thank you, Mr. Chairman.
    Mr. Ose. All right. Mr. Under Secretary, we are going to 
leave the record open for 10 days for questions for the record, 
so obviously when we send them we certainly appreciate a timely 
response.
    We also, by consensus up here, think we might in 4 to 6 
months have another hearing just like this to discuss DHS's 
progress. We'd appreciate your cooperation on that.
    Mr. Hutchinson. Always.
    Mr. Ose. It's great to see you. You're doing a great job. 
We appreciate your being here today.
    Mr. Hutchinson. Thanks for your partnership.
    Mr. Ose. All right.
    We'll take a 5-minute recess.
    [Recess.]
    Mr. Ose. We'll reconvene.
    As you may have seen in the first panel, as a matter of 
course we swear all our witnesses. We are joined today on our 
second panel by the following people: Mr. C. Morgan Kinghorn is 
the president of the National Academy of Public Administration. 
Welcome. We are also joined by Mr. Edward Flynn, who is the 
secretary of the Executive Office of Public Safety in the State 
of Massachusetts. We are also joined by Mayor Karen Anderson, 
from the city of Minnetonka, MN, on behalf of the National 
League of Cities. Our fourth witness is Dr. Martin 
Fenstersheib, who is the health officer for Santa Clara County 
Public Health Department on behalf of the National Association 
of County and City Health Officials. And our fifth witness is 
the former Administrator of the Federal Emergency Management 
Agency, Mr. James Lee Witt, who is currently president of James 
Lee Witt Associates, LLC.
    If you'd all stand and raise your right hands.
    [Witnesses sworn.]
    MR. Ose. Let the record show that the witnesses all 
answered in the affirmative.
    Now, as you saw in the first panel, what we do is we have 
each of the witnesses from my left to my right summarize their 
testimony in the form of a 5-minute oral statement. We'll then 
entertain questions from the Members present. I do want to 
remind everybody we have copies of your written statements and 
they will be entered in the record, so if you could summarize 
and allow us to get to our questions that would be great.
    Mr. Kinghorn, you are first to be recognized for 5 minutes.
    Welcome.

 STATEMENTS OF C. MORGAN KINGHORN, PRESIDENT, NATIONAL ACADEMY 
 OF PUBLIC ADMINISTRATION; EDWARD FLYNN, SECRETARY, EXECUTIVE 
    OFFICE OF PUBLIC SAFETY, STATE OF MASSACHUSETTS; KAREN 
   ANDERSON, MAYOR, CITY OF MINNETONKA, MN, ON BEHALF OF THE 
NATIONAL LEAGUE OF CITIES; MARTIN FENSTERSHEIB, HEALTH OFFICER, 
 SANTA CLARA COUNTY PUBLIC HEALTH DEPARTMENT, ON BEHALF OF THE 
 NATIONAL ASSOCIATION OF COUNTY AND CITY HEALTH OFFICIALS; AND 
    JAMES LEE WITT, FORMER ADMINISTRATOR, FEDERAL EMERGENCY 
    MANAGEMENT AGENCY, CURRENTLY PRESIDENT, JAMES LEE WITT 
                        ASSOCIATES, LLC

    Mr. Kinghorn. Thank you, Mr. Chairman. I am pleased to 
appear before you today to testify on the Department of 
Homeland Security's plan for the consolidation and co-location 
of regional and field offices. I am the president of the 
National Academy of Public Administration, which is an 
independent, nonpartisan organization chartered by the Congress 
to offer trusted advice to public leaders, including Members of 
Congress and agency policymakers. The views presented today are 
my own and do not necessarily represent those of the Academy, 
but they are based on a forum the Academy held in late December 
with DHS officials and fellows of the Academy who are expert in 
intergovernmental relations.
    There is little publicly available information on how DHS 
specifically plans to co-locate and consolidate its regional 
and field office structures, so I will focus my remarks on 
issue DHS ought to consider as it develops and implements its 
plans. My comments are centered on two topics. First, it is 
imperative that all stakeholders fully understand that 
intergovernmental relationships are rapidly evolving, and, 
second, it is essential that regional and field office 
structures are effectively pieced together and managed within 
this changing intergovernmental framework, and both issues 
directly affect training, one-stop shopping, and first 
responder effectiveness.
    I will now quickly highlight some key principles for 
managing intergovernment relations under Homeland Security.
    First, eliminate confusion. Many city, county, and State 
officials do not yet sufficiently understand their functions, 
mandates, roles, and responsibilities under Homeland Security. 
To address those issues, DHS should: one, better articulate its 
intergovernmental mission, vision, goals, and objectives; two, 
obtain widespread buy-in from key stakeholders; three, widely 
publicize this intergovernmental framework as a high priority; 
and, four, as mentioned earlier, train and build capacity to 
accomplish that mission.
    Second, balance command and control with collaboration. 
Intergovernmental relations have evolved from vertical, 
stovepiped systems into a much more complex, overlapping 
network that are both vertically and horizontally linked. 
Within this very decentralized network system, command and 
control are sometimes necessary, but DHS should use 
collaboration, partnerships, and incentives wherever possible.
    Third, test the system against probable scenarios. DHS has 
conducted such simulations, but it should consider more 
sophisticated capacity-building initiatives. This could involve 
taking a set of multi-jurisdictional crisis scenarios and 
asking the partners in the system to demonstrate how their 
personnel, equipment, protocols, and procedures would respond.
    Turning briefly to field and regional office issues, DHS 
office structures must be derived from a clearly articulated 
mission--or, in the case of DHS, missions--in order to 
effectively organize training, technical assistance, and 
information dissemination. Given the complexity of homeland 
security, DHS may need a variety of field and regional 
structures.
    Next, DHS needs to consider advantages and disadvantages of 
existing models. There is a wide range of structural models, 
from strong regional directors such as at FAA to a coordinating 
committee approach such as the DOT or some other issue such as 
sub-agency differences within the Department. Each differ 
primarily with respect to the extent to which the regional 
office controls what goes on in the field. For DHS that control 
might need to change, depending upon circumstances.
    The Department should establish unambiguous lines of 
authority. The authority for critical incident decisionmaking 
should rest as closely as possible in field offices directly 
affected by events. Regional office should play a role when, 
one, multiple field offices face terrorist attacks or other 
large-scale challenges; two, when serious interjurisdictional 
disagreements arise; three, when a policy is being imposed over 
multiple jurisdictions; or, four, when consolidating functions 
in regional offices will achieve efficiency.
    Headquarters must carefully monitor the field and regional 
activity. Failure and ineffectiveness in some past Government 
reorganizations have been attributed in part to lax oversight 
of field and regional office activity. In most cases, DHS 
should place career civil servants in regional management 
positions because they have experience managing large Federal 
organizations and responses to critical incidents. Political 
appointees would likely experience difficulty maintaining long-
term intergovernmental partnerships, since political positions 
typically turn over quickly.
    DHS should ring out structural duplication while 
maintaining necessary redundancy, and DHS as well as we should 
not confuse duplication with the redundancy necessary to 
replace failed or immobilized components.
    The Academy stands ready to assist your committee and the 
Department of Homeland Security in any way we can, and I thank 
you for allowing me to share my views.
    Mr. Ose. Thank you, Mr. Kinghorn.
    [The prepared statement of Mr. Kinghorn follows:]

    [GRAPHIC] [TIFF OMITTED] T4905.030
    
    [GRAPHIC] [TIFF OMITTED] T4905.031
    
    [GRAPHIC] [TIFF OMITTED] T4905.032
    
    [GRAPHIC] [TIFF OMITTED] T4905.033
    
    [GRAPHIC] [TIFF OMITTED] T4905.034
    
    [GRAPHIC] [TIFF OMITTED] T4905.035
    
    [GRAPHIC] [TIFF OMITTED] T4905.036
    
    [GRAPHIC] [TIFF OMITTED] T4905.037
    
    [GRAPHIC] [TIFF OMITTED] T4905.038
    
    [GRAPHIC] [TIFF OMITTED] T4905.039
    
    [GRAPHIC] [TIFF OMITTED] T4905.040
    
    [GRAPHIC] [TIFF OMITTED] T4905.041
    
    [GRAPHIC] [TIFF OMITTED] T4905.042
    
    [GRAPHIC] [TIFF OMITTED] T4905.043
    
    [GRAPHIC] [TIFF OMITTED] T4905.044
    
    Mr. Ose. Our next witness is Mr. Ed Flynn, who is the 
Secretary of Public Safety for the Commonwealth of 
Massachusetts. Welcome.
    Mr. Flynn. Thank you very much. Good day, Mr. Chairman, 
Congressman Tierney. Thank you for having me here. I am the 
Secretary of the Executive Office of Public Safety. In 
Massachusetts, that is a Secretariat that includes 10,000 
employees and $1 billion budget. It includes our State 
Department of Prisons, our State Police, our Emergency 
Management Agency, our Parole Board. It includes the National 
Guard, the Registry of Motor Vehicles, and a wide variety of 
institutions and agencies. And in the last year it has also 
started to include responsibility for Homeland Security. When 
this administration took office, Homeland Security was a 
separate stovepipe, a separate advisor to the Governor, and it 
was certainly seen, if you would, to be a good idea to co-
locate that function in the Executive Office of Public Safety, 
which already had responsibility for emergency management and 
the State Police and the National Guard and things of that 
nature.
    To paraphrase a now-somewhat-discredited famous domestic 
advisor, ``Co-location, it's a good thing.'' Now, I come to 
that conclusion based on many years of police experience and 
some very specific experiences of recent years. I have spent 33 
years in the law enforcement business. I worked my way up in 
the chain of command in Jersey City, NJ, before I became a 
police chief, first in Braintree and then Chelsea, MA, and then 
finally in Arlington, VA. I was the police chief in Arlington 
on September 11, 2001, when the Pentagon in Arlington, VA, was 
attacked. Certainly that has had an effect on my thinking when 
it comes to Homeland Security.
    I work for our Governor, who was the executive in charge of 
the first national special security event post-September 11. 
That's Governor Mitt Romney. The event was the Salt Lake City 
Olympics. So the two of us have very practical experience as to 
managing Homeland Security in a post-September 11 world, and we 
come to these responsibilities with very specific concerns 
about how this business is conducted.
    First and foremost, one of the things I learned at the 
Pentagon is what we all know now, which is any community has 
the potential for being an incident commander for an act of 
international terrorism. We also learned that everything police 
and fire do at the scene of a terrorist event arises out of 
their core mission. Finally, we learned that no jurisdiction 
does this alone, that it is essential to have mutual aid 
partners and an interjurisdictional response.
    But certainly an interjurisdictional response in 
metropolitan D.C., in which I had to coordinate the activities 
of seven major sophisticated police departments, is profoundly 
different than coordinating a similar response in, say, New 
Jersey or Massachusetts, where there are 351 fiercely, proudly 
independent cities and towns, each one of whose shoulder patch 
proudly proclaims what decade in the 17th century they were 
founded. Coordinating that response obviously puts a great 
burden on the State to be strategic, to coordinate those 351 
cities and towns, to have some sort of strategy that kind of 
operationalizes the military dictum that he who tries to defend 
everything defends nothing. And, so it is in Massachusetts 
we've worked hard to leverage Homeland Security funding, which 
is also spent through my office, to create interjurisdictional, 
interdisciplinary partnerships, to create formulas that guide 
our funding to make sure that the funding is risk based, 
vulnerability based, and threat based, and, finally, to make 
sure that we are in touch with our core constituencies. This 
arises out of the fundamental principle of organization which 
balances the desire to organize functionally with the need to 
functionalize geographically.
    If there's one thing the policing business learned in the 
1980's and 1990's particularly as we tried to engage with our 
communities and have a positive impact on the quality of life 
and on crime, it is that we had to be close to our 
constituents. Where possible, that meant physical 
decentralization. That meant putting our cops in the 
communities, be they in station houses or in storefronts, or at 
least giving them geographic responsibility. We did the same 
thing with our detective divisions. Why? Because we found out a 
long time ago detectives don't talk to patrol officers and 
patrol officers don't talk to detectives, and the fact is that 
in policing we don't tend to share information with people we 
neither know nor trust. And to achieve that, whether it is 
within the precinct house or in an interjurisdictional drug 
task force or gang task force, we've got to put those cops 
together where they are going to talk to each other, where 
they're going to learn to trust each other, rely on each other, 
and, yes, ultimately actually tell each other things.
    Now, this is true in police work and it is true in most 
areas of government--that we work collaboratively with those we 
know and trust, and if we have them in the same building 
they're going to talk to each other, they're going to buildup 
those trusting partnerships, and they are going to coordinate 
their activities. Certainly we've tried to do that at the 
Executive Office, where the Under Secretary for Homeland 
Security and Public Safety are right next to each other, as 
they are with the Under Secretary for Corrections. We think 
they need to model the behavior that we'd like to espouse for 
our Federal partners. We think there's no better way to 
coordinate the central aspects of information flow than to have 
the people responsible for that information in the same 
vicinity in a situation in which they can communicate with each 
other.
    Thank you.
    Mr. Ose. Thank you for your testimony.
    [The prepared statement of Mr. Flynn follows:]

    [GRAPHIC] [TIFF OMITTED] T4905.045
    
    [GRAPHIC] [TIFF OMITTED] T4905.046
    
    [GRAPHIC] [TIFF OMITTED] T4905.047
    
    [GRAPHIC] [TIFF OMITTED] T4905.048
    
    Mr. Ose. Our next witness is the mayor of Minnetonka, MN, 
the Honorable Karen Anderson. Welcome. You are recognized for 5 
minutes.
    Mayor Anderson. Thank you. Thank you very much, Chairman 
Ose and members of the committee. The National League of Cities 
is very pleased to share our position on the Department of 
Homeland Security's efforts to reorganize, restructure, co-
locate the regional and field offices of more than 22 agencies 
that were merged in the new department.
    I am Karen Anderson, mayor of Minnetonka, MN. I'm a past 
president of the National League of Cities, and I am a member 
of the Department of Homeland Security's State and Local Senior 
Advisory Committee.
    I understand our written testimony is already part of the 
record, so I will just summarize some of that.
    The National League of Cities is the largest and the oldest 
organization representing local governments in the United 
States. We represent over 17,000 cities, towns, and villages. 
Our municipal leaders are concerned about any plans to 
restructure the DHS field offices. They know that will impact 
our local governments, our first responders, and our ability to 
fulfill the expanded duties for emergency preparedness and 
homeland security.
    I want to highlight four points that we urge Congress and 
DHS to consider for the restructuring process: the importance 
of a centralized field office, the establishment of local task 
forces to help in that, information sharing and best practices, 
and then all hazards planning.
    First, the importance of providing a one-stop shop in the 
form of a centralized office when possible would be a valuable 
benefit to local government. Having a centralized office with 
the authority to quickly garner the resources needed during a 
catastrophe, to perform the onsite coordination among Federal 
agencies, that's all paramount to improving the readiness and 
the response capabilities locally. A good example of a one-stop 
shop is Minnesota's State duty officer, whose office is 
available 24 hours a day 7 days a week to determine the 
appropriate State agency and to identify and mobilize the 
resources that are needed in an emergency. This model, when 
applied to the consolidation of field offices, could provide a 
one point of contact to determine the appropriate Federal 
agency and identify the Federal resources that are available to 
assist our local first responders in an emergency.
    The field offices could also provide local governments with 
the technical assistance needed to plan for coordinated 
response, procure needed equipment, coordinate training and 
exercises, and secure grants.
    Second, NLC strongly supports the creation of local task 
forces that include local elected officials and first 
responders to facilitate the establishment of efficient and 
workable co-located regional or field offices. It's a good 
government approach to ensure that the input of all 
stakeholders is included early in the process.
    Information sharing and best practices, third, I would like 
to emphasize the importance of sharing information and sharing 
our best practices among all stakeholders. DHS can play an 
important role in providing a centralized clearinghouse of best 
practices that are drawn from all entities involved in 
emergency response and homeland security. That clearinghouse 
should be accessible to local governments and first responders 
through both DHS, but also through the local field offices. 
That could be a point of collection for the best practices, as 
well.
    All hazards planning, fourth. DHS must build on the 
progress made through FEMA's focus on all hazards planning. 
This model should be used in the consolidated field offices to 
integrate planning for natural disasters with the expanded 
duties for Homeland Security. Our folks are most concerned that 
the resources already developed for responding to natural 
disasters that we know are going to occur--we are going to have 
tornadoes in Minnesota. We know that and we are prepared to 
respond and we want to make sure that those capabilities aren't 
diminished or lost with the new attention paid to homeland 
security.
    Finally, NLC urges Congress and DHS to ensure that there 
are enough resources and flexibility in the consolidation 
process to address the unique needs of every local 
jurisdiction. Using a one-size-fits-all approach to disaster 
preparedness is not the most successful way to improve homeland 
security, and a careful analysis is needed to ensure that these 
efforts don't create an added level of bureaucracy.
    We want to congratulate Secretary Ridge and his staff on 
the progress that has been made within the last year, and we do 
appreciate the challenges that still lie ahead. To continue 
this progress and ensure that the field offices are most 
effective we need strong partnerships, collaboration problem 
solving, and enhanced communication. Mr. Chairman, NLC looks 
forward to working with you and the Department of Homeland 
Security to build a national system of domestic preparedness 
that is flexible enough to prevent and respond to all types of 
emergencies.
    Thank you. I would be available for questions.
    Mr. Ose. Thank you, Madam Mayor.
    [The prepared statement of Mayor Anderson follows:]

    [GRAPHIC] [TIFF OMITTED] T4905.049
    
    [GRAPHIC] [TIFF OMITTED] T4905.050
    
    [GRAPHIC] [TIFF OMITTED] T4905.051
    
    [GRAPHIC] [TIFF OMITTED] T4905.052
    
    [GRAPHIC] [TIFF OMITTED] T4905.053
    
    Mr. Ose. Our next witness is Dr. Martin Fenstersheib who 
is, again, the health officer for Santa Clara County in 
California. Welcome, sir. We do have a copy of your written 
statement for the record. You're welcome to summarize in 5 
minutes.
    Dr. Fenstersheib. Thank you very much, Chairman Ose, and 
greetings from the great State of California.
    Mr. Ose. Thank you.
    Dr. Fenstersheib. It is my pleasure to be here speaking to 
you about this very important issue today. I am representing 
the National Association of County and City Health Officials, 
and it represents the nearly 3,000 local health departments 
across the country. I work at one such local health department 
in Santa Clara County, CA.
    We are really, really happy to be here, to be basically the 
new kid on the block when it comes to first responders. I think 
it was already--public health and health was already mentioned 
I think by the chairman once today, so we're very, very happy 
about that. But it is a shift. I think it is a paradigm shift 
in the thought process and the perception of what first 
responders are today, and clearly when we look at the issues of 
biological warfare, bioterrorism, public health has played and 
continues to play a major role in what we are doing.
    Now, in California we are really proud of the way we have 
basically worked our coordination efforts with our traditional 
first responders, and through the efforts of the funding from 
the Department of Homeland Security we have been able to secure 
some of those funds, but it has been through the leadership 
within California that has directed those funds to include 
public health at the table to make sure that discussions and 
integration and collaboration include the critical work of 
public health, be included, and that we would also and I would 
also suggest be perhaps a guiding force or some direction for 
the Department in the future, to really require that public 
health be at the table in all the negotiations for co-location, 
for standardization, and for other types of planning within the 
Department of Homeland Security.
    I wanted to give you a couple of examples of how things 
really work. Because of the integration and the work we have 
been doing in actually sitting at the same table with the new 
players that I consider not traditional in my field, which is 
the sheriff, my local sheriff, my local police chiefs, my local 
county fire people, because we have sat at the table, because 
we know one another I think our response has been very, very 
effective.
    Almost 1 year ago today in San Jose at the airport an 
American Airlines plane landed there, and the pilot reported to 
us that there might be a couple cases of SARS on board. We got 
that information from county communications and it was required 
or requested of us in public health to be the lead in the 
incident command. This has never happened before. And I don't 
know whether that's a good thing or not, but we did speed out 
to the airport and we entered the plane as the first first 
responder to that incident. We actually evaluated the situation 
on that airplane as it sat on the tarmac and determined that 
there were a couple people that may meet the definition of 
SARS.
    This, again, was not a terrorist event, but certainly it 
could have been any biological agent that we were dealing with. 
It could have been smallpox that we were dealing. However, we 
did evaluate those patients. We had the paramedics on board. We 
had the police there. We had fire. We had HAZMAT units there. 
But we directed the response. We had those patients get off of 
the plane and get into the ambulances and go to our general 
hospital, where they were evaluated.
    Now, none of those patients turned out to be SARS; however, 
as I said it could have been smallpox. Because of the training 
we've had in public health, we have been vaccinated. We could 
have actually entered that plane safely and evaluated that 
incident had it been smallpox at that time.
    We've also been able to deal with some of the white powder 
incidents that have come up all across the country, and because 
of the work, the integration, the collaboration that we've had 
with traditional first responders, recently one of the fire 
chiefs--one of the police chiefs at a local municipality called 
me up and said that there was a questionable couple of letters 
that had white powder in it, what should he do. Again, 
unprecedented type of relations with public health, mainly 
because this is the planning that we have been doing under our 
directions down from Homeland Security.
    We got that letter tested. It turned out not to be 
anything, which was good, but we were able to do a risk 
assessment and work with that local police agency to deal with 
the local response, and everything worked out fine.
    On the education side, we were talking about cross training 
and different types of education materials. We developed 
locally something which I think could be a national model. It's 
called ``Disaster University.'' It is something that public 
health has put together. Here's our brochure, first catalog. 
Basically, it is different courses where we've served as a 
clearinghouse to bring people together and train them. We have 
mental health professionals, again, which should not be left 
out in this equation. We've had fire and police trained in 
many, many different areas, and I think it will serve again as 
a way of cross training and providing different levels of 
expertise to others. We might expand that to some of the 
traditional agencies within the Department of Homeland Security 
whom we don't really talk with. TSA at the airport--we have no 
relationship with them whatsoever, and several other of the 
agencies. And so I think, again, bringing some of those closer 
to where the first responders actually work, where we work, 
would be very helpful.
    We think that, again, that we have provided some really 
good models, and California has taken a leadership role again, 
as I mentioned, really making sure that public health is at the 
table and actually making sure that some of the funds from DHS 
are expended in the area of public health. IN fact, it's 20 
percent.
    We welcome DHS's leadership, and we want to be at the 
table. We want to be at the table during planning, and we want 
DHS to be at our planning table, also. Remember that public 
health is concerned with the health of the community, but we 
also are concerned with the health of the first responders and 
will be there to protect them, also, before they go out in 
harm's way.
    Thank you very much.
    Mr. Ose. Thank you, Doctor Fenstersheib.
    [The prepared statement of Dr. Fenstersheib follows:]

    [GRAPHIC] [TIFF OMITTED] T4905.054
    
    [GRAPHIC] [TIFF OMITTED] T4905.055
    
    [GRAPHIC] [TIFF OMITTED] T4905.056
    
    [GRAPHIC] [TIFF OMITTED] T4905.057
    
    [GRAPHIC] [TIFF OMITTED] T4905.058
    
    [GRAPHIC] [TIFF OMITTED] T4905.059
    
    [GRAPHIC] [TIFF OMITTED] T4905.060
    
    Mr. Ose. Our final witness on the second panel is Mr. James 
Lee Witt, who is the former Administrator of the Federal 
Emergency Management Agency. He is the president of James Lee 
Witt Associates, LLC.
    Sir, welcome to our panel. You are recognized for 5 
minutes.
    Mr. Witt. Thank you, Mr. Chairman, members of the 
committee. Thank you for inviting me to participate in this 
hearing today. I appreciate the opportunity to come before you 
today to share my thoughts.
    First let me say I am extremely concerned that the ability 
of our Nation to prepare for and to respond to disasters has 
been sharply eroded. I would urge that you look at the 
consolidation of offices and other areas of concern at DHS. You 
look at them for their effect on the local, State, and Federal 
partnerships for an all hazard approach to emergency and 
consequence management.
    During my tenure at FEMA, the staff and the resources of 
our regional offices enabled our agency to maintain strong 
relationships with our State and local partners and other 
Federal response agencies in the cities and States. These 
relationships were critical for the effective communication and 
coordination before, during, and after a disaster. 
Relationships built over the years facilitated our ability to 
preposition staff, resources in advance of hurricanes and flood 
disasters, helped expedite efforts in catastrophic disasters 
like Hurricane Floyd, the North Ridge Earthquake, the Murray 
Building bombing, and many others across our Nation.
    Through ongoing training and exercising of the 
administration of our performance partnership agreements with 
the States in their areas, our regional staff were able to 
truly know the State and local capabilities, both strengths and 
weaknesses, so that our FEMA team could hit the ground during a 
disaster and support resources that State and local government 
needed. Relationships that were built over the years during 
disaster and non-disaster experiences allowed the regions and 
the entire agency to accurately identify the needs of the State 
and local governments' first responders and disaster victims.
    I feel very strongly that these people in the front lines 
of the defense of our homeland must have the input into the 
policies of DHS, especially in the discussion of regional and 
field offices. Everyone agrees that creating DHS has been and 
continues to be a monumental and very difficult task. While 
many elements are providing essential security for our Nation, 
I and many others in the emergency management community here 
and across the country are deeply concerned about the direction 
FEMA's all hazard mission is headed.
    I hear from emergency managers, local and State leaders, 
and first responders nearly every day that the FEMA they knew 
and worked with has now disappeared. In fact, one State 
emergency manager told me it's like a stake has been driven in 
the heart of emergency management of this Nation. They are 
suffering the impact of dealing with a behemoth Federal 
department rather than the small but agile independent agency 
that coordinated Federal response effectively and efficiently, 
understands the needs of its local and State partners. They're 
concerned that the successful partnership that was built and 
honed over all of the years between local, State, and Federal 
partners and the ability to communicate and coordinate and 
train, prepare, and respond has gone downhill, and they are at 
a loss as to how to work with the Federal Government now and 
they fear for their community should a catastrophic disaster 
occur.
    So what is it that is causing this concern? First, FEMA has 
lost its important status as an independent agency. Instead, it 
has been buried beneath a massive bureaucracy whose main and 
seemingly only focus is fighting terrorism. And, while that is 
absolutely critical, it should not be at the expense of 
preparing for and responding to natural disasters. While the 
likelihood of another terrorist attack on our homeland is sure 
to happen, it is an absolute certainty that our country will 
experience more natural disasters, and there will be no 
question that some will be catastrophic. It is not a matter of 
if, it is a matter of when and where.
    Second, the FEMA Director has lost Cabinet status, and with 
it the access and the close relationships with the President 
and Cabinet affairs. I assure you that we could not have been 
as responsive and as effective during disasters as we were 
during my tenure as FEMA Director had there been layers of 
Federal bureaucracy between myself and the White House. Just 
one degree of separation is too much when time is of the 
essence and devastating events are unfolding rapidly.
    I firmly believe that FEMA should be reestablished as an 
independent agency, reporting directly to the President but 
allowing for the Secretary of Homeland Security to task FEMA to 
coordinate any type of response to a catastrophic terrorist or 
manmade event.
    Historically, duty of consequence management following a 
terrorist event is important. We saw that in the Murray 
Building. We saw it in September 11th. We saw it in several 
others. But I think, Mr. Chairman, that the years that I have 
served in public service, which has been almost 25, this 
experience that I had from local, State, and Federal, and while 
I have seen and witnessed over many years, partnerships working 
together with State and local government and Federal agencies 
is absolutely critical. We had one of the most dynamic Federal 
teams in the Federal Government that I have ever witnessed.
    In closing, let me say this. The 8 years as FEMA Director I 
saw Federal career employees work unbelievable hours, made 
sacrifices, and made a difference for this country because they 
cared about what they were doing, and I will never, ever forget 
that. So, thank you.
    Mr. Ose. Thank you, Mr. Witt.
    [The prepared statement of Mr. Witt follows:]

    [GRAPHIC] [TIFF OMITTED] T4905.061
    
    [GRAPHIC] [TIFF OMITTED] T4905.062
    
    [GRAPHIC] [TIFF OMITTED] T4905.063
    
    [GRAPHIC] [TIFF OMITTED] T4905.064
    
    [GRAPHIC] [TIFF OMITTED] T4905.065
    
    Mr. Ose. As is our normal practice, we will now go through 
rounds of questioning. Each Member will be given 5 minutes. 
There is a clock there in front of Dr. Fenstersheib and Mr. 
Witt to monitor your time.
    Dr. Fenstersheib, you mention in your testimony the State 
law that sets up the five-member county-based, what term did 
you use?
    Mr. Fenstersheib. Approval authority.
    Mr. Ose. Approval authority--thank you--for the 
expenditures of Federal grant moneys from DHS. Now you've 
testified that it has been a phenomenal or at least a 
reasonable success. Do you know of any other jurisdictions 
outside of California that have used anything of a similar 
nature?
    Mr. Fenstersheib. I really don't. I know that there's 
certainly close coordination for the urban area types of grants 
that are coming from DHS, but I'm not aware of any that are 
similar to California in this regard.
    Mr. Ose. Besides Santa Clara, where else has this strategy 
been particularly effective in California?
    Mr. Fenstersheib. Well, I am part of a group that 
encompasses all of the health officials in the San Francisco 
Bay area, and we were just talking about this last week, and 
everybody was agreeing and shaking their heads that it has 
actually worked phenomenally well. In fact, I spoke to the 
Office of Homeland Security's Deputy Director this morning to 
tell him that I thought that it was working well and that I was 
going to then pass that on to this committee, so I think it is 
working quite well.
    Mr. Ose. So there are eight counties in that?
    Mr. Fenstersheib. Nine.
    Mr. Ose. Nine?
    Mr. Fenstersheib. Nine counties.
    Mr. Ose. All right. And they each have their own five-
person adjudicatory body?
    Mr. Fenstersheib. They sometimes call us the ``Gang of 
Five.'' But yes, that's it. It's not under law; it is just a 
directive by the Office of Homeland Security in California.
    Mr. Ose. The State Office of Homeland Security?
    Mr. Fenstersheib. State Office of Homeland Security called 
OHS.
    Mr. Ose. All right.
    Mr. Fenstersheib. They also made it required that we have 
20 percent, 20 percent, 20 percent for fire, law, and health, 
and 40 percent discretionary funds that we can all agree on for 
things such as training.
    Mr. Ose. OK. Now, Mr. Flynn, in terms of your experience 
both in Massachusetts and then onsite at the Pentagon, would 
this kind of a body have helped in terms of pre-event type of 
situation, helped in terms of resolving many of the conflicts 
that you had to deal with kind of in the crush of the moment?
    Mr. Flynn. Well, just for the record, even through the 
pleasant haze of history we really didn't have a lot of 
conflicts there, just by nature of this region. As you know 
living here, there's an extraordinary amount of 
intergovernmental collaboration already in place because 
Washington, DC, metro has been at ground zero for 60 years, so 
there were very, very few interjurisdictional, 
interdisciplinary problems at the Pentagon because we had 
worked and trained and drilled together, unlike most of the 
rest of the country.
    Similarly to what California does now, Massachusetts, with 
its next iteration of Homeland Security funding, has pledged 
itself in its Homeland Security strategy, which has recently 
been approved by ODP, to distribute this money based on 
jurisdictions that we have fixed that largely mirror the old 
emergency management jurisdictions and regions of the State, 
and those regions will each have a governing council made up of 
police chiefs, fire chiefs, emergency management directors, 
hospital officials, emergency management directors, and people 
representing the city and town manager community, and that 
group will, in fact, decide who the fiduciary is for that 
money, they will identify someone to assist with a regional 
plan, and they will be the ones making the decisions to 
distribute those funds. So we're kind of taking a page from 
California's book without knowing it, but we are going to apply 
the same concept in Massachusetts.
    Mr. Ose. All right. Now, Dr. Fenstersheib, I don't mean to 
pick on you, but I just--this Disaster University concept that 
you came up with--first of all, I want to enter into the record 
the pamphlet you have there, but I also would like to have you 
expand upon what the Disaster University concept does.
    Mr. Fenstersheib. Well, it's not a building but it is a 
virtual university, and what we've done is co-locate a lot of 
the training efforts and serve as a clearinghouse or resource, 
but we also provide--we have staff that oversee this. We put 
out--and I think it is very useful just figuring out all that's 
out there. I think a lot of people don't even know what's out 
there for training. And so bringing everything together, 
getting the information out to the appropriate people that 
might benefit from those particular trainings, get that 
information, sometimes bringing actual people out that we feel 
need to be in our area to train, say, mental health 
professionals which we just had a couple weeks ago, which was 
very, very valuable. I mean, mental health is often something 
that's lost. And actually the concept of just identifying 
what's needed from all of the jurisdictions and then bringing 
those and making those available, and then having something 
really that you can put your hands around and look at like a 
university catalog and say, ``This is what is offered,'' and 
actually offer credits, too, for those professions that have 
continuing education.
    Mr. Ose. But that was not put together by the Public Health 
Office; that was put together by the county, so it is holistic?
    Mr. Fenstersheib. The Public Health Department is within 
the county, and so we in Public Health actually have the staff 
that are doing this.
    Mr. Ose. But you have mental health, you have physical 
health, you have law enforcement, you have fire.
    Mr. Fenstersheib. We're doing it for them.
    Mr. Ose. OK.
    Mr. Fenstersheib. So it is happening in public health, but 
it brings everyone together and gets all of their requests and 
puts them all into one place.
    Mr. Ose. All right. Thank you.
    Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    Mr. Witt, you have me concerned here with your testimony, 
so let me ask. You're indicating to us, I believe, that even 
before there's any attempt at consolidation or coordination 
amongst the various DHS departments, you feel that FEMA has 
sort of had its role subsumed and no longer able to respond as 
quickly, no longer able to take charge of the consequence 
situation, and no longer able to get a direct decision from the 
White House or the top as they have in the past; is that 
correct?
    Mr. Witt. Well, I'm very concerned about it, particularly 
as this consolidation occurs, that I think it needs to be 
looked at very carefully because you don't want to lessen the 
opportunity of the President to be able to make a decision very 
quickly, directly to the head of FEMA or the agency that's 
responding. I know in the past with experiences I had, that one 
phone call and have that access, to be able to make that 
decision very quickly makes a big difference, particularly for 
a Governor of a State. I think it has lessened the importance 
of an all hazard approach to consequence management. I know, 
working with Congress and working with the White House, it was 
absolutely important to be able to have access and to be able 
to talk to chairmen, to be able to talk to Members, 
particularly in Districts that have been affected. So yes, I 
think it has been lessened, and I think the--I am concerned 
about the regions, I'm concerned about consolidation. If a 
consolidation is within the municipality that they're all in, 
that's different and should be looked at. But if it is broader 
than that, then that's where I would have questions.
    Mr. Tierney. I don't speak for the chairman, but I know we 
were originally talking about municipalities and local offices 
and the benefit of tying them together.
    Mr. Witt. Yes.
    Mr. Tierney. That doesn't concern you----
    Mr. Witt. Not within that----
    Mr. Tierney [continuing]. Drawing people in for an entire 
region.
    Mr. Witt. Yes.
    Mr. Tierney. Mr. Flynn, how do Mr. Witt's concerns impact 
Massachusetts? And what is Massachusetts doing to sort of 
confront those types of concerns?
    Mr. Flynn. Well, we're certainly working very closely. The 
Emergency Management Agency in Massachusetts is part of the 
Executive Office of Public Safety. It has a long and rich 
history of collaborating well with FEMA, as well as with the 
regions of Massachusetts that report to it for emergency 
management purposes. What our priority is right now is making 
sure that emergency management works seamlessly with the rest 
of our Homeland Security efforts, which means really helping 
make it more intrinsic to the efforts of the State Police and 
the Department of Fire Services and the National Guard by 
making them a prime provider of incident command training for 
all of those jurisdictions of a higher level. So we are trying 
to get our Emergency Management Agency to move somewhat beyond 
its historic responsibilities for consequence management and 
mitigation and into a more proactive stance regarding Homeland 
Security generally.
    Mr. Tierney. If there was a natural disaster in 
Massachusetts, who would the emergency management people report 
to directly?
    Mr. Flynn. Well, it would depend on who the incident 
commander was, obviously, and the type of incident it was. So 
clearly every community becomes an incident commander if they 
have a disaster. In that context, whether it is a fire disaster 
or a police disaster or overall disaster, the Emergency 
Management Agency in Massachusetts plugs right into whatever 
the incident command system that is in place. Functionally, of 
course, they report to a Secretariat, but in the field, of 
course, they are part of the incident command structure.
    Mr. Tierney. Suppose we have a huge flood in Gloucester, a 
lot of devastation on that and it becomes a national area of 
concern up and down the coast. What would be the process there? 
I mean, how would the process differ than it used to under FEMA 
as it was constructed prior?
    Mr. Flynn. Well, at the State level it doesn't now, in our 
experience. I mean, certainly local emergency managers respond 
to or report to or coordinate, I suppose is actually the best 
term of art. Local emergency managers coordinate with the 
regional emergency manager who coordinates with the Statewide 
emergency manager, and they make sure that the appropriate 
resources are brought to bear. Their job is to coordinate a 
mitigation response, and they do so very well.
    Mr. Tierney. Suppose it is large enough that you want to 
get the national perspective or whatever, take another step.
    Mr. Witt. The next step is the State Emergency Management 
Agency connects to FEMA and activates their responses.
    Mr. Tierney. And now, Mr. Witt, you're saying what happens 
then under your concern.
    Mr. Witt. Yes.
    Mr. Tierney. Explain to me what you think is the problem 
there--that they contact FEMA and under the old FEMA what 
happens and what looks like to be occurring, what happens now?
    Mr. Witt. If it was an event that was large enough that the 
State and local government were not able to respond to to 
minimize a risk to that State or those communities, then that 
State director of emergency management would make a request to 
the FEMA regional director's office, the regional director's 
office. That would come up to the headquarters or through the 
Governor's office, and the Governor would make a request to the 
President for either an emergency declaration or full 
declaration.
    The regional office then would work with the State in 
conjunction with them in doing the very fast damage assessments 
and analysis to see whether it was warranted for the President 
to make a declaration.
    That speed is very important because it could mean whether 
or not lives are saved and property saved, and that is my 
concern, particularly when it comes to the national level. If 
Under Secretary Michael Brown has to go through two to three 
layers of bureaucracy within the Department of Homeland 
Security to advise the Cabinet and the President that the 
Governor of Massachusetts has asked for an emergency 
declaration for public health and safety, and that it is 
important to get the President to declare this immediately, if 
it goes through two, three layers of decisionmakers, that chain 
can be broken very quickly and that speed could be stretched a 
lot longer in getting something done.
    So it is important that the Under Secretary, like the 
Director of FEMA, be able to connect to someone to make that 
decision immediately and not have a layer between that decision 
process. That's my concern.
    Mr. Tierney. Thank you.
    Mr. Ose. Mr. Ruppersberger.
    Mr. Ruppersberger. Mr. Witt, I'm going to get back to you, 
and when the yellow light goes on I probably will, but I want 
to get into some other issues because I think what you're 
talking about right now as far as direct decisionmaking has to 
do with anything that we have to do and any type of disaster or 
whatever.
    I was a former local elected official for 18 years, and I 
was a county executive for 8 years and a county executive 
during September 11, and I know your pain or know your issues. 
And I think one of the things that is very important when you 
deal with Federal Government, to be honest with you, I didn't 
really care much about what the Federal Government did other 
than when they gave us good grant money, and so what I found is 
that when we got money directly from the Federal Government 
that came directly to the locals without going through the 
Federal and State bureaucracy, we would get the money right 
away, we could put it out in the street, whether it was for 
cops or whatever. It was there. And when I see a program that 
is too bureaucratic and doesn't have that kind of system, we 
need to look at it.
    Now, Homeland Security really--the Department of Homeland 
Security is a reality. We have to deal with it. It is broad. It 
is very bureaucratic, and unfortunately it doesn't have the 
resources that it needs. When you don't have the resources, you 
have to pick your priorities.
    Your comments, all of you, about being involved in the 
front line, I mean, any good managers go to the front line and 
ask the front line what they need.
    In my District we did a--which is the 2nd Congressional 
District and it has NSA, it has the Port of Baltimore, it has a 
lot of different areas, a lot of water, and I want to ask about 
Isabel. But anyhow, in that District we did a survey of all 
local institutions--volunteer fire, career fire, governments, 
whatever. Of all those institutions, 76 percent hadn't received 
any money from Homeland Security. So we have a problem here. We 
have an issue, and that's why we're having this hearing.
    I would like to know--I guess, Ms. Anderson, we'll start 
with you--what you feel needs to be--it's just a broad softball 
question, but what you feel you would like to see from your 
perspective as mayor on what priorities would you need. Now, 
there are priorities. There's an intelligence issue where you 
have your local people getting together with the State, the 
Federal, and FBI, and Customs. There's one group dealing with 
intelligence. Then there's the first responder issue. Then 
there's a lot of the medical issues afterwards if something 
does occur. So from a local elected official, what would you 
recommend? And if you could address the issue of baseline. I'm 
going quick because I only have 5 minutes. I don't see how we 
can really have any standards until we have a baseline of 
standards so that we know exactly what we need. What you need 
in your jurisdiction might not be what we need in Gloucester or 
need in other areas, and we need to be more specific.
    I know Congressman Tierney and Congressman Shays and I have 
a bill in, a standards bill, to try to develop that. I don't 
know where the bill is right now, but you know hopefully we'll 
be able to move forward and at least get people thinking of 
standards.
    Ms. Anderson.
    Mayor Anderson. Well, as we know the resources are being 
directed through the States at this point. The National League 
of Cities did support that for the first year and a half. We 
recently changed our position----
    Mr. Ruppersberger. Good.
    Mayor Anderson [continuing]. And said that we believe that 
the resources should go through the States except for those 
cities and regions of over 100,000 and larger population or 
those with a specific, unique need that might need direct 
funding. And the reason we changed our position is because the 
money isn't getting to the local level.
    I think we are encouraged by movement just within the last 
couple of months that maybe some of that logjam is beginning to 
be broken and being addressed. But, interestingly, the needs 
are different in every State and in many unique regions and 
areas, so I think it is difficult to have it based on a 
national baseline or standard, and it may be very appropriate 
to do that on a regional basis. But the locals need to know 
about that. They need to know with some certainty where to go 
and how the baseline and the standards, where they are being 
developed and where they are and how to respond. That's where 
we see that the consolidated field offices could be very 
helpful, because they will be unique to each.
    Mr. Ruppersberger. And have input from the local level.
    Mayor Anderson. Yes.
    Mr. Ruppersberger. Have you been working with NACO, 
National Association of Counties, on this issue?
    Mayor Anderson. We have been working with NACO on Homeland 
Security issues. The discussions about co-location and 
consolidation are very recent, so we have not, but we certainly 
will.
    Mr. Ruppersberger. Mr. Witt, the issue of Isabel, a lot of 
the area that I represent was on the water in Baltimore and 
different parts and a lot of people lost their homes and hadn't 
had that kind of devastation in a while. FEMA eventually came 
in, but one of the main reasons I think that we started to get 
the attention is that we got Ridge to come. Once we got the 
man, I mean, the leader to be there, then we were able to move 
forward. And I agree with you. I mean, when you have a natural 
disaster you have to move quickly. You can't wait. And, part of 
FEMA's role pursuant to the Federal law is basically to help 
people in the beginning stages to get them where they need to 
be. And yet when you have Coast Guard, Customs, all these 
different arenas, I'd just like to know that you have to take 
care of, too, because Ridge has a really tough job. What would 
your--what do you know about Isabel and how FEMA reacted with 
respect to that disaster and what recommendations do you have 
to make it better?
    Mr. Witt. Well, two things. One, it was very interesting on 
Isabel. We got a lot of calls from States. We got calls from 
Virginia and Maryland and we advised them and helped them, some 
of it privately. The response was not as good as it should have 
been. The closeness of working with the State and local 
communities was not as good as it had been in the past. I don't 
think it is anyone's fault. I just think the fact that a lot of 
the focus and attention that FEMA has had in the past on these 
type of events has been lessened because of demand on them for 
other priorities that have been placed through Department of 
Homeland Security, which is important and critical. Don't get 
me wrong, but I think what bothers me----
    Mr. Ruppersberger. But there has been a dilution of where 
it was and where it is now?
    Mr. Witt. Yes. Priorities change during different times, 
there's no doubt. But, what concerns me is the fact that, you 
know, we had the Federal response plan in place, the national 
Federal response plan that was amended after the bomb in the 
Murray Building to include terrorist type events. Based on 
that, every State and every local government prepared Statewide 
plans and local plans in preparing for and responding to an all 
hazard approach using the ESF function at the Federal, State, 
and local level. So a system was in place.
    The problem I had is to save time, save money, and to move 
this process much faster is why are we trying to reinvent the 
wheel instead of just adding more spokes in it that it needs. 
That's one of my concerns.
    Mr. Ruppersberger. OK. Thank you.
    Mr. Ose. Mr. Kinghorn, you talked in your testimony about 
something to the effect of we're only as strong as our weakest 
link, and I presume you're suggesting that we have some 
specific points that you identify as most troublesome, and I'm 
wondering if you would be willing to share those with us.
    Mr. Kinghorn. I think one of the things that I'm certainly 
hearing from this panel and our fellows who are involved in 
this--a third of our fellows are from State and local 
government, local health officials, and heads of most of the 
county organizations and city organizations who have been 
involved in looking at these issues--that the situation has 
dramatically changed. There were two large scenarios done, one 
before September 11 and one last year, Top Off and Top Off 2. 
One of the key things that came out of that was the incredible 
size difference in the number of organizations involved in 
potential terrorism attacks other than natural disasters, and 
the real requirement to develop, as Mr. Flynn and others 
mentioned real relationships with different organizations.
    I think it is not so much one city versus another as the 
weakest link; I think it is this issue that was talked about 
today, developing best practices from what is coming out from 
all the localities, because there is really no and there 
probably can't be any centralized control over what a best 
practice is. But, I think what could be done is to share how, 
in these kinds of situations, people can react better. There 
were over 120 different entities in Top Off 2 that interacted. 
Just like we heard from Dr. Fenstersheib, we had new people who 
never had become leaders in incidents being thrust into those 
positions. I think that's really what we meant by the weakest 
link. When we have to really look at this in terms of unnatural 
disasters, terrorism, the situation can be quite different.
    Mr. Ose. OK. Mr. Witt, I want to go back a little bit here. 
Congressman Ruppersberger brought up Hurricane Isabel. We've 
had fires in California, things like that. I'm trying to figure 
out, in the context of the discussion we had about standards, 
what is the standard for response from the Federal Government? 
For example, I carry around this little Blackberry all the time 
and it's like I've got a 30-second response to anything that 
happens. Sometimes I like it and sometimes I don't. But, I'm 
constantly in contact with people in my office somewhere. So 
when we're talking about FEMA having been subsumed at the DHS, 
the standard for FEMA response should be----
    Mr. Witt. Basically, using the fires in California as an 
example, State director of emergency management, when those 
fires begin, would contact the FEMA regional office in 
Sacramento, in San Francisco, and say, ``We have a situation 
that may expand. Would you get your team here in our emergency 
operations center so they can be here working with us,'' and 
they would be there. They would respond.
    We had on the national, regional level, we had red, white, 
and blue teams that were on duty for that particular month 
that, if something like this was starting to take place, then 
this team would automatically be there in support of that 
particular State in the operations center. Then, if it 
expanded, then the team was there supporting the State and 
being able to communicate that back to not only the region but 
also to Washington.
    Let me just share this with you. I was in Chicago and it 
was at night when the fires were going on, and I called Dallas 
Jones, the State director, to see if there was anything we 
could do to help him. Chairman Jerry Lewis called me from 
California because it was in his District, a big part of it, 
that night on my cell phone, and he was--he said, ``James Lee, 
I need some help.'' I said, ``Mr. Chairman, what can I do to 
help you?'' He said, ``Well, the fire is extremely bad. We're 
going to lose a lot of homes,'' and he was very worried about 
it. And, he said, ``Could you please tell me someone within 
FEMA that I could call to talk to, because I cannot get anyone 
to return my calls.''
    Mr. Ose. Has FEMA's approach in terms of the standby teams 
changed? Do you know if these teams are still in existence?
    Mr. Witt. Mr. Chairman, I could not answer that question. I 
do not know.
    Mr. Ose. I'm wondering how----
    Mr. Witt. I have not been working--Mr. Flynn might be able 
to--you've been working with them on it?
    Mr. Flynn. I haven't had any complaints yet.
    Mr. Ose. Well, I am concerned. You've suggested that 
perhaps there had been significant change, and I'm trying to 
figure out what the change might have been.
    Mr. Witt. There has been so much change, you know, I cannot 
answer that if they have been dissolved or added to because I 
don't talk to FEMA that much.
    Mr. Ose. So we don't know if they are still there or not?
    Mr. Witt. No, sir.
    Mr. Ose. All right. My time has expired.
    Mr. Tierney. Mr. Flynn, in light of the reports this week 
that the State and city officials in the Boston area might not 
have been informed after September 11th about certain boats 
carrying natural liquid gas, I'm interested in fleshing out a 
little bit about how the communications system is working here. 
Can you tell me how information on threats now gets relayed 
from the Department of Homeland Security to the local first 
responders? What's the process on that? Who does it go through?
    Mr. Flynn. Well, I think it is important to note that there 
are two sources of information now available to State and local 
police officials. This can be good. It gives us more 
opportunities to get more information. It can be bad when one 
source of that information doesn't know about the information 
the other source is providing and can't verify it. We had all 
three experiences. We get information from the FBI, frequently 
from the Joint Terrorism Task Force, and that comes to us 
through our State Police members on it, as well as the major 
jurisdictions. That's certainly a robust and effective 
investigatory task force. We also from time to time get threat 
information from the Department of Homeland Security.
    The difficulty is that sometimes it's not the same 
information from both entities, and there are times that one 
entity is unaware of the information the other entity has. I 
would say some of this perhaps is structural and goes back to 
the founding of the Department of Homeland Security, and 
clearly a significant component of our law enforcement response 
to terrorism is not located in Homeland Security, and so 
therefore there are not perhaps the levels of coordination at 
that level.
    Mr. Tierney. That was a point back when it was being set 
up.
    Mr. Flynn. So, I mean, that's certainly been a challenge 
for us. Obviously, as you know, back home the local media have 
been all over this LNG issue and who knew what when. I can say 
that I called in my office just before I came here and asked if 
we'd gotten any spontaneous phone calls from our Federal 
partners, and we hadn't yet, so I still don't have any 
information to add to that which was revealed yesterday, 
although I did buy a copy of the book to read on the airplane 
to find out for myself what had gone on. So I know what you 
know right now.
    Mr. Tierney. Well, you know, ``I told you so'' is not a 
policy, so I won't get into that too much, but there was a lot 
of discussion at the time as to, you know, pick 22 out of 133 
agencies and organizations and clump them together and sort of 
somehow leave the FBI out, along with others, and put certain 
other ones in.
    The fire departments tell me that they're not in the loop, 
that DHS may notify local police officers, whatever, through 
the law enforcement, whatever, when there's a threat out there, 
and the fire department doesn't seem to be indicated that they 
should get the same level of detail that the police do, but 
they feel they ought to somehow be included in notice of 
threats out there because it would help them respond and they 
should be part of that. What's your feeling on that, Mr. Flynn?
    Mr. Flynn. Well, I think there's two ways to look at this 
issue, and I'd really like to turn the paradigm around a little 
bit after I respond to the primary question here.
    We work hard to keep our fire departments in the loop 
through a notification system known as ``SATURN,'' and what 
that acronym means----
    Mr. Tierney. You're talking about the State?
    Mr. Flynn. That's correct.
    Mr. Tierney. And, I guess, just to stop you, because I'll 
be limited time, I'm really talking about the Federal flow of 
information of threat assessment as it may go through the State 
or not.
    Mr. Flynn. Well, when DHS provides information to us we 
send it out to our red, white, and blue teams, so, you know, 
the boilerplate general threat information we provide 
immediately to our fire partners as well as our State partners.
    Mr. Tierney. Thank you. Mr. Witt, have you heard similar 
things on that? Is there any issues on that, if you can tell me 
about what you're hearing.
    Mr. Witt. I have heard similar. I was in New York yesterday 
and I visited with the fire commissioner of New York and some 
fire folks, and I think it boils down to different States 
having different systems in place and how they communicate, 
because a lot of times you get into areas, particularly in the 
major metropolitan areas and States with high population, you 
get into situations where there's a lot of turf wars, there's a 
lot of ownership.
    Mr. Tierney. That would never happen in Massachusetts. 
[Laughter.]
    Mr. Witt. So I don't know if that is a fixable solution 
right now. I think it is a doable thing in the future, but I 
think it is going to take a little bit more time.
    Mr. Tierney. Mr. Witt, besides FEMA and the concerns you 
have for it being sort of subsumed into a bureaucracy, of any 
of the other 21 remaining agencies that are sort of connected 
at the DHS, do you have a fear that any one of their missions 
or goals are going to be put in the same sort of predicament?
    Mr. Witt. I do have a lot of concern. You know, when I was 
at FEMA we worked extremely close with SBA, HUD, Corps of 
Engineers, DOD. It was really a unique Federal team of 26 
agencies. And I do have some concerns. I had a lot of the 
disaster medical teams across the United States contact me 
because they had basically cut the funding to the disaster 
medical teams that we had built over the years. These teams are 
absolutely critical, particularly when you have catastrophic 
events. They responded to September 11 in New York, the 
Pentagon, and many other places. They responded in North Ridge, 
Floyd. These teams are volunteer. They are like Doctors Without 
Borders. They're like our national search and rescue teams, and 
they train very hard. They're doctors. They're professionals. 
They're paramedics. And they contacted me and they could not 
get anyone at FEMA nor DHS or HHS to talk to them. So I have a 
lot of concerns across the board in how it has been handled. 
But, you know, Secretary Ridge has a huge responsibility and 
Under Secretary Hutchinson, White House is a fellow Arkansan I 
know well and have met with.
    And let me just say, too, when Joe Albaugh was at FEMA and 
now Michael Brown--and I met with him quite often and had lunch 
with him and told him, I said, ``Look, anything I can do to 
support you behind the scenes quietly that will help you to be 
successful, I will do, because if you are successful then I 
know that the American people are going to be taken care of, 
because I'm worried about it, I'm concerned about it, and I 
still want to help and do what we can.'' But it has to be a 
partnership and it has to be from the local, State, national 
level, because, you know, when Secretary Flynn in 
Massachusetts, if something happens you know who is going to be 
there at the first. It's going to be your local and State first 
responders, emergency management, all of them. And you know 
what's interesting? They're going to respond regardless of what 
kind of equipment they've got because they care about the 
community.
    Mr. Tierney. Thank you.
    Mr. Ose. I want to thank our witnesses for appearing today. 
It is interesting hearing the testimony, the challenges that 
lay ahead of us. In its first year as a department, DHS has 
made significant progress toward achieving its mission of 
reducing this Nation's vulnerability to terrorism and preparing 
the various levels of government for dealing with any such 
disasters, whether they be natural or otherwise. It's clear we 
have a long road ahead of us. We're not doing everything 
perfect yet. You heard me ask Under Secretary Hutchison about a 
followup hearing in 4 to 6 months. I think that would be 
appropriate. We are going to leave the record open for 10 days 
for Members' written questions. We'll get them to you and we'd 
appreciate a timely response.
    We thank you all for taking the time to come down and 
participate.
    We are adjourned.
    [Whereupon, at 3 p.m., the subcommittees were adjourned, to 
reconvene at the call of their respective Chairs.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T4905.066

[GRAPHIC] [TIFF OMITTED] T4905.067

[GRAPHIC] [TIFF OMITTED] T4905.068

[GRAPHIC] [TIFF OMITTED] T4905.069

[GRAPHIC] [TIFF OMITTED] T4905.070

[GRAPHIC] [TIFF OMITTED] T4905.071

[GRAPHIC] [TIFF OMITTED] T4905.072

[GRAPHIC] [TIFF OMITTED] T4905.073

[GRAPHIC] [TIFF OMITTED] T4905.074

                                 <all>

</pre></body></html>
